 OFFICE OF AUDIT
 REGION 1
 BOSTON, MA




               Ofori & Associates, PC, Hartford, CT

      Single Family REO Contract Administration




2013-BO-1001                                   FEBRUARY 19, 2013
                                                        Issue Date: February 19, 2013

                                                        Audit Report Number: 2013-BO-1001




TO:            Charles S. Coulter
               Deputy Assistant Secretary for Single Family Housing, HU



FROM:          Edgar Moore
               Regional Inspector General for Audit, Boston Region, 1AGA


SUBJECT:       Ofori & Associates, PC, Hartford, CT, Did Not Always Comply With Its REO
               Contract and Marketing Plan Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Ofori & Associates, PC, regarding
compliance with case processing requirements and timeframes to obtain the highest net return for
HUD’s REO inventory and minimize holding time.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

If you have any questions or comments about this report, please do not hesitate to call me at 212-
264-4174.
                                              February 19, 2013
                                              Ofori & Associates, PC, Hartford, CT, Did Not Always
                                              Comply With Its REO Contract and Marketing Plan
                                              Requirements




Highlights
Audit Report 2013-BO-1001


 What We Audited and Why                        What We Found

We audited Ofori & Associates, PC,             Ofori officials did not always comply with case
regarding its U.S. Department of               processing requirements and timeframes for the
Housing and Urban Development                  disposition of REO properties assigned to them.
(HUD) real estate-owned (REO)                  Specifically, they did not always perform all case
Management and Marketing (M&M) III             processing requirements or perform case processing
program. This review was part of the           requirements in a timely manner to minimize holding
Office of Inspector General’s efforts to       time and costs to HUD. They also did not adequately
improve the integrity of the single-           document information in case files and the P260
family insurance program. Our audit            computer system.1 This condition occurred because
objective was to determine whether             Ofori officials did not always follow contract and
Ofori complied with case processing            marketing plan requirements; have adequate controls
requirements and timeframes to obtain          in place to ensure that case processing requirements
the highest net return for HUD’s REO           were completed and documented; and adequately
inventory and minimize holding time.           address procedures, processes, and timeframes they
                                               would follow. As a result, HUD did not have
                                               assurance that it always received the highest net return
 What We Recommend
                                               on its REO inventory and that holding time and costs
                                               were minimized.
We recommend that the Deputy
Assistant Secretary for Single Family
Housing require Ofori officials to
establish sufficient internal controls to
ensure that contract and marketing plan
requirements are performed adequately
and in a timely manner. We also
recommend that the Deputy Assistant
Secretary for Single Family Housing
provide guidance to Ofori officials
regarding adequately documenting P260
and the property case files, and ensure
that it develops adequate controls to
ensure that all required documentation
is included in the property case files and 1 P260 is an Internet-based system that serves as the primary
uploaded to P260.                          system of record for all REO case management transactions.
                           TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding: Ofori Officials Did Not Always Comply With Their REO Contract
                and Marketing Plan Requirements                                 5

Scope and Methodology                                                          15

Internal Controls                                                              17

Appendixes
A.    Schedule of Questioned Costs                                             18
B.    Auditee Comments and OIG’s Evaluation                                    19
C.    Property Deficiencies by Case Number                                     28




                                           2
                          BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) provides mortgage insurance on loans made by
FHA-approved lenders throughout the United States and its territories. FHA mortgage insurance
provides lenders with protection against losses as a result of homeowners defaulting on their
mortgage loans. When a homeowner defaults, the lender deeds the home to the Secretary of
Housing and Urban Development in exchange for an insurance claim payment. The property
then becomes part of the U.S. Department of Housing and Urban Development’s (HUD) real
estate-owned (REO) inventory from which HUD offers the property for sale to recover the loss
from the foreclosure claim.

Since 1999, HUD has outsourced the disposition of its REO inventory under the management
and marketing (M&M) contracting process. M&M contractors manage and market single-family
properties owned by or in the custody of HUD. HUD has launched the third generation of its
M&M program, known as M&M III. Before M&M III, contractors were responsible for both
maintenance and marketing of HUD’s REO properties. However, under M&M III, these
functions have been separated to increase the effectiveness of HUD’s asset disposition program.

To foster competition among the contractors, thereby improving responsiveness, reducing risk,
and increasing net returns to the agency, HUD awarded multiple field service manager and asset
manager contracts in each area. Field service managers are companies that provide property
preservation and protection services consisting of but not limited to inspecting the property,
securing the property, performing cosmetic enhancements and repairs, and providing ongoing
maintenance. Asset managers are responsible for the marketing and sale of REO property in a
manner that maximizes net return, minimizes holding time, and expands home ownership.

HUD selected Ofori & Associates, PC, as one of its asset managers covering four contract areas
(1A, 2A, 2P, and 3P). We focused our audit efforts on two of Ofori’s contract areas, known as
2P and 3P,2 covering 15 States with a contract effective date June 1, 2010.

HUD identified five primary objectives for its asset managers according to its performance work
statement. They are to ensure that

        1.   Properties are accurately and competitively valued,
        2.   Sales achieve the highest net return,
        3.   Holding time is minimized,
        4.   Sales create owner-occupant opportunities, and
        5.   Closing proceeds are properly accounted for and delivered to HUD in a timely
             manner.

For properties located in the 2P and 3P jurisdictional areas, HUD expended more than $12
million on Ofori’s asset manager contract fees between June 1, 2010, and March 31, 2012. The

2
 2P consists of the District of Columbia, Delaware, Ohio, Maryland, Pennsylvania, Virginia, and West Virginia; 3P
consists of Connecticut, Massachusetts, Maine, New Hampshire, New Jersey, New York, Rhode Island, and
Vermont.

                                                        3
total value of Ofori’s contracts was more than $57.8 million, including the base year and 4 option
years. HUD’s Homeownership Center in Philadelphia is responsible for the direct oversight of
Ofori’s contracts. Our overall audit objective was to determine whether Ofori complied with
case processing requirements and timeframes to obtain the highest net return for HUD’s REO
inventory and minimized holding time.




                                                4
                                 RESULTS OF AUDIT


Finding: Ofori Officials Did Not Always Comply With Their REO
         Contract and Marketing Plan Requirements
Ofori officials did not always comply with case processing requirements and timeframes for the
disposition of REO properties assigned to them. Specifically, they did not always perform all
case processing requirements or perform case processing requirements in a timely manner to
minimize holding time and costs to HUD. They also did not adequately document information in
case files and the P260 computer system. This condition occurred because Ofori officials did not
always follow contract and marketing plan requirements; have adequate controls in place to
ensure that case processing requirements were completed and documented; and adequately
address procedures, processes, and timeframes they would follow. As a result, HUD did not
have assurance that it always received the highest net return on its REO inventory and that
holding time and costs were minimized.


 Case Processing for Disposition
 Not Always in Accordance With
 Requirements and Timeframes

              Ofori officials did not always perform all case processing requirements in
              accordance with their contracts and marketing plans. Specifically, they did not
              always

                      1.   Ensure that properties were in ready-to-show condition.
                      2.   Follow up on appraisal-related discrepancies.
                      3.   Disclose all available property information to purchasers.
                      4.   Document the reanalysis of properties or a detailed plan to sell
                           properties that had been on the market for 90 days or perform
                           reanalysis in a timely manner.
                      5.   Perform counteroffers in accordance with the marketing plan.
                      6.   Perform or perform in a timely manner all required inspections.
                      7.   List or relist properties when contracts were canceled, execute sales
                           contracts, or close on properties within the required timeframes.
                      8.   Adequately perform closing procedures.

              Of the 62 case files reviewed, we found at least one error in each case. The
              details are described below and summarized in appendix C.




                                                 5
                  1. Properties Not Always in Ready-To-Show Condition

                  In 19 of 62 cases reviewed, Ofori officials did not follow up on discrepancies
                  between the appraisals, the property inspections, or both related to the property’s
                  condition. In seven of these cases, the properties were not in ready-to-show
                  condition3 when listed, and Ofori officials should have submitted a work order for
                  correction by the field service manager4 before listing the property for sale and
                  notified HUD of the property condition as required. Additionally, health and
                  safety hazards were sometimes noted in the appraisals or appraisal pictures but
                  not included in the inspection reports performed by Ofori’s listing brokers5 or
                  narrative of the appraisal reports. As a result, these properties may not have been
                  in ready-to-show condition.

                  For example, in case number 411-3843905, the appraisal pictures showed
                  standing water in the basement; however, Ofori officials did not issue a work
                  order for the field service manager to correct this issue. The appraisal narrative
                  did not discuss the water in the basement. In this case, Ofori officials did not
                  order a ready-to-list inspection; therefore, one was not performed before the
                  property was listed. In addition, there was no documented follow-up with the
                  field service manager or government technical representative.6




                  Standing water in the basement

3
  Ready-to-show condition is defined as “the property is free of debris, visible insect/rodent infestations and health
and safety hazards. All cabinets, refrigerators, freezers, counter tops, and windows must have been wiped clean and
the house must be free of bad smells. All floors and carpets must be clean. All repairs required to correct safety
hazards and any approved repairs to be done prior to listing the property must be completed in order for the house to
be in ready to show condition. The yard must be free of trash and debris. The grass must be cut, bushes trimmed
and holes patched, and or properly secured to protect the public. Swimming pools and wells must be properly
secured to protect the public.”
4
  According to section 5.2.1.1.of Ofori’s contracts and section 2 of its marketing plans, after receipt of the appraisal
and before listing the property for sale, Ofori will perform a walk-through inspection (ready-to-list inspection) to
ensure that all initial services, work orders, and repairs, if applicable, are completed as intended and ensure that the
property is in ready-to-show condition.
5
  Ofori’s agreements with its listing brokers required the listing brokers to perform the initial, ready-to-list, and
ready-to-close inspections.
6
  According to section 5.2.1.1.of Ofori’s contracts, the government technical representative should be notified of
property condition variances.

                                                           6
                 In another example, case number 352-5601402, the housing property inspection
                 report performed by the field service manager before assigning the property to
                 Ofori stated that the property was structurally unsound and unsafe to enter.
                 Pictures in the report showed a collapsed foundation wall and mud on the
                 basement floor. However, inspections performed by the listing broker did not
                 identify this deficiency, and the appraiser did not mention the collapsed
                 foundation wall in the appraisal narrative. However, the appraisal pictures
                 showed the collapsed foundation wall in the basement and snow and mud in the
                 basement where the collapsed wall was located. There was no documented
                 follow-up on these issues with the government technical representative or field
                 service manager.




                 Collapsed foundation wall with snow and mud in the basement

                 2. No Follow-up on Discrepancies or Deficiencies in Appraisals

                 Ofori officials did not always follow up on deficiencies or discrepancies with
                 appraisal information in 16 of the 62 cases reviewed (26 percent). We found
                 instances in which (1) the appraised value was inconsistent in different sections of
                 the appraisal, (2) the appraisers did not always adequately explain value
                 adjustments for comparable properties when they exceeded HUD guidelines,7 and
                 (3) the appraiser did not include all repair information when determining the
                 insurability of the property.

                 For example, in case number 249-2937521, the appraiser made an error on the
                 report and showed an appraised value of $120,000 on the cover page, when the

7
  According to appendix D of HUD Handbook 4150.2, Valuation Analysis for Home Mortgage Insurance for Single
Family One- to Four- Unit Dwellings, generally adjustments should not exceed 10 percent for line items, 15 percent
for net sales price adjustments, and 25 percent for gross sales price adjustments. If any adjustments exceed stated
guidelines, an explanation must be provided.

                                                         7
correct “as is value,” as reported in the body of the report, was $60,000. Ofori
officials used the incorrect amount that was shown on the cover page and listed
the property at $120,000. In this case, the adjusted comparable values did not
exceed $75,000, and the listing price opinion obtained from the listing broker had
a suggested list price of $49,000. The property was listed for 187 days before it
was sold at a sales price of $15,257. As a result, HUD had no assurance that it
received the highest net return on this property with minimal cost since Ofori
officials did not adequately review or check the accuracy of the appraisals to
ensure that the property was correctly valued and listed.

3. All Available Property Information Not Always Disclosed

Ofori officials did not always document that all available property condition
information was provided to the bidders or purchaser before executing the sales
contract in 13 of the 62 cases reviewed in accordance with its contracts. For
example, Ofori did not always document that it provided the property condition
report and lead-based paint disclosures and in one case, did not notify the
purchaser that the property was condemned. In five cases, Ofori officials did not
document that they provided the final purchaser of the property with the lead-
based paint inspection report that was performed for a previous bidder whose
contract was canceled, and in two cases, the home inspection report from a
previously canceled contract was not provided to the final purchaser before the
contract was executed. Failure to disclose all available property condition
information can result in delays in closing the property and additional holding
costs to HUD.

4. Reanalysis and Detailed Plan Not Documented or Performed in a Timely
   Manner

The marketing plan listed detailed steps that Ofori would perform when
reanalyzing properties. However, reanalysis of properties was not documented in
the files or in the P260 system, and the procedures used when reducing the price
of properties were not consistent with those specified in Ofori’s marketing plan.
Instead, after a specified period, Ofori officials reduced the price of the property
by a fixed percentage during each reanalysis period. According to discussions
with HUD officials, this price reduction was a standard reduction. Further, the
marketing plan was not always consistent with the contract. Specifically, revision
3 of Ofori’s marketing plan provided that Ofori would reanalyze the property after
30 days on the market; however, Ofori’s contracts stated that properties would be
reanalyzed after 45 days. Ofori officials revised their marketing plan from 30 to
45 days in October 2011.

Ofori officials did not reanalyze properties in a timely manner in 15 cases in
accordance with their contract and marketing plan. According to the marketing
plan, Ofori officials would reanalyze properties after a certain number of days on



                                 8
the market. However, they did not always perform the initial reanalysis or
subsequent reanalysis in a timely manner in accordance with the marketing plan.

Additionally, although the marketing plan discussed detailed steps Ofori would
take for properties that were on the market for 90 days, in nine cases, Ofori
officials did not document that they had developed a detailed plan to sell these
properties. As a result, properties may have been on the market longer, and HUD
may not have received the highest net return on the property. Thus, Ofori
officials need to follow their marketing plan for property reanalysis and for
properties that have been on the market for 90 days.

5. Counteroffers Not Always Performed in Accordance With Ofori’s Plan

Ofori officials did not always counteroffer bids in accordance with their
marketing plan. Specifically, officials did not always provide counteroffer bids
that met the trigger amount for counteroffers, and in some cases, bids did not meet
the trigger amount to counteroffer; however, counteroffers were made without
documented HUD approval. Ofori officials later revised their marketing plan
based on discussions with HUD officials, which gave them the right to counter
any and all bids; however, before this revision, they should have documented
HUD’s approval for counter bids that did not meet the trigger amount, and they
should have countered bids in accordance with their marketing plan. According
to discussions with Ofori officials, HUD wanted them to counteroffer more and
implement these changes before the revised marketing plan.

6. Inspections Not Always Performed or Performed in a Timely Manner in
   Accordance With Requirements

Ofori officials did not always perform or perform in a timely manner all required
inspections in accordance with requirements of its contracts and marketing plan.
Specifically, in 19 of the 62 cases reviewed, the ready-to-list or ready-to-close
inspections were not performed. The ready-to-list inspection is performed to
ensure that all of the initial services, work orders, and repairs, if applicable, are
completed as intended and ensure that the property is in ready-to-show condition
before listing the property for sale. The ready-to-close inspection is required to
ensure that the property is in the same condition as listed or as contained in the
contract for sale.

In 46 cases, at least one of the required inspections was not performed within the
required timeframes specified in Ofori’s marketing plan and contracts. Although
Ofori’s policies and procedures adequately addressed performing these
inspections, Ofori officials did not always order or order in a timely manner the
inspections as required, and their listing brokers did not always perform the
inspections in a timely manner. The initial inspection is performed to determine
whether the property is in ready-to-list condition and is ready for an appraisal.



                                  9
                  Also, according to Ofori’s marketing plan, initial inspections must be completed
                  within 2 days of assignment from the field service manager, ready-to-list
                  inspections should be performed immediately upon receipt of the appraisal, and
                  the ready-to-close inspection should be completed within 5 days before the
                  closing. However, in six cases, the ready-to-list inspections were performed after
                  the property was listed.

                  7. Failure To List in a Timely Manner, Relist When Contracts Were Canceled,
                     Execute Sales Contracts, or Close on Properties

                  Ofori officials did not always perform all case processing requirements in a timely
                  manner in accordance with their contract and marketing plan to minimize holding
                  time and cost.8 Specifically, they did not always list or relist properties in a
                  timely manner, execute sales contracts, or close on properties in a timely manner
                  in 31 of the 62 cases (50 percent) reviewed.9 Ofori officials stated that the delays
                  were caused by the huge influx of inventory at the beginning of their contracts
                  and the lack of P260 system access for many staff members during this time.

                  For example, in case number 413-3955605, Ofori officials did not cancel and
                  relist the property in a timely manner when the original contract had expired, yet
                  they executed a second sales contract with one of their listing brokers. In this
                  case, the second sales contract was not canceled until contract expiration, which
                  was 45 days later. Ofori officials suspended the listing broker; however, the
                  broker agreement did not contain a provision prohibiting them from bidding on or
                  purchasing REO properties. The listing broker was later reinstated, and a new
                  certification was obtained that included the provision. Ofori officials also did not
                  have written policies and procedures in place detailing what steps staff should
                  take to monitor conflicts of interests. This listing broker placed many bids on
                  other properties, of which two of the property sales closed and the broker received
                  commissions totaling $3,800.10 According to section 5.1.13.1 of Ofori’s contract
                  with HUD, Ofori may not permit any conflicts of interest. Therefore, HUD
                  should require Ofori officials to repay this amount and determine whether further
                  action should be taken.

                  8. Closing Procedures Not Always Adequately Performed

                  Ofori officials did not always adequately perform closing procedures in
                  accordance with their contract. Specifically, they did not always (1) follow the
                  requirements for two discount program sales; (2) notify HUD of amounts paid at
                  closing, including those that may be the responsibility of the field service

8
  According to the Philadelphia Homeownership Center, holding costs in quarter 4 of 2011 for 2P were
approximately $26 per day and for 3P were $35 per day.
9
  We noted that a majority of these delays were during the first 9 months that properties were assigned to Ofori.
10
   In these two cases, the property was listed by another listing broker, but the listing broker-purchaser was paid a
selling broker commission on these properties. These two properties were outside our sample of 62 cases shown in
appendix C.

                                                         10
               manager or lender in 43 of the 62 cases reviewed; and (3) ensure that the costs on
               the form HUD-1 (Settlement Statement) were correct.

               a. Discount Program Sale Requirements Not Met

               One property reviewed, case number 374-4334673, was a Good Neighbor Next
               Door (GNND) sale, whereby the purchaser received a 50 percent discount on the
               sale in exchange for agreeing to occupy the house for a period of not less than 3
               years. However, Ofori officials did not ensure that the second mortgage and note
               for the 50 percent discount amount of $57,500 were executed and recorded. Ofori
               officials also did not document that the required post-closing package was sent to
               HUD’s National Service Center for occupancy monitoring. This condition
               occurred because Ofori’s policies and procedures did not include GNND sale
               requirements. The second mortgage and note are intended to act as an absolute
               bar to the sale of the property during the 36-month required occupancy term
               without repaying the appropriate portion of the discount. Ofori officials also did
               not verify that the purchaser did not already own property as prohibited by the
               contract. Since Ofori’s policies and procedures did not include GNND sale
               requirements, HUD had no assurance that properties sold under the GNND
               program were sold to eligible purchasers and that its interest in these properties
               was properly secured. According to the P260 system, as of November 19, 2012,
               there were a total of 36 GNND sales, including the one reviewed.

               b. HUD Not Always Notified of Amounts Paid at Closing

               Ofori officials did not always notify HUD of amounts paid at closing, including
               amounts that may be the responsibility of the field service manager or lender,
               such as taxes, utility costs, homeowners’ association fees, and associated penalties
               and interest. Additionally, Ofori’s process for notifying HUD was not consistent
               for each contract area, as the government technical representative for each area
               required a different method for reporting these payments. Specifically, the
               representative for contract area 2P required that a spreadsheet be provided
               monthly, showing amounts paid at closing from the proceeds, such as taxes,
               penalties, interest, homeowners’ association fees, and utility payments. The
               representative for contract area 3P required that he be notified via email of any
               amounts to be paid at closing from the proceeds. As of January 2012, contract
               areas 2P and 3P were both using the spreadsheet. In some cases reviewed, the
               case was included on the spreadsheet to HUD, however, interest and penalties
               were not broken out as required. As a result, HUD paid $1,394 in costs that may
               have been the responsibility of the field service manager or lender, including
               penalties and interest on taxes, utilities, and homeowners’ association fees.11



11
  Related to case numbers 372-1680833, 412-6043294, 341-0927619, 441-7769920, 061-2876843, 548-4350643,
251-3824725, 548-4392990, 351-3794529, 374-4458795, 441-6742401, 541-7782122, 352-5601402, 412-5067701,
and 412-5096171

                                                  11
             c. Costs on HUD-1 Not Always Correct

             Ofori officials approved duplicate costs in two cases (case numbers 548-4392990
             and 061-3005865) for homeowners’ association fees that were paid by the field
             service manager and were also paid from the proceeds to HUD at closing.
             Although the field service manager’s payment of these fees was uploaded to the
             P260 system before closing, it was not checked by Ofori officials before they
             approved the preliminary HUD-1. Therefore, HUD should obtain reimbursement
             for the $450 in duplicate payments. In one of these cases (548-4392990), the
             closing agent also included $1,517 in additional costs on the HUD-1 that were not
             approved by Ofori officials.

Case Files and P260 Not
Documented Adequately and in
a Timely Manner

             Based on our review, Ofori officials did not adequately document case files, and
             information was not always uploaded to the P260 computer system as required by
             their contracts. Ofori’s contracts require that officials maintain adequate case
             files documenting property disposition until closeout of the property and also
             require them to document this information in the P260 system. Case files did not
             include documentation related to property disposition, and property reanalysis
             was not documented in the files or in the P260 system. This included
             documentation such as relevant emails that were generated outside the P260
             system and approvals by HUD for property reanalysis. The case files also did not
             always include final closing packages, and the reasons for canceled contracts were
             not always documented in the file or the P260 system.

             Additionally, the initial, ready-to-list, and ready-to-close inspection reports were
             not always uploaded to P260 or uploaded in a timely manner as required by
             Ofori’s contract and marketing plan, nor were they always included in the files.
             Based on discussions with Ofori officials, this condition may have been caused by
             the volume of inventory transferred at the beginning of the contracts, a lack of
             P260 access for many of Ofori staff until April or May 2012, and confusion by
             Ofori officials regarding what documentation should be included in the file and
             P260.

Conclusion

             Ofori officials did not always comply with case processing requirements and
             timeframes for the disposition of REO properties assigned to them. Specifically,
             they did not always perform all case processing requirements or perform case
             processing requirements in a timely manner to minimize holding time and costs to
             HUD, nor did they adequately document case files and the P260 computer system.
             This condition occurred because Ofori officials did not always follow contract

                                              12
               and marketing plan requirements; have adequate controls in place to ensure that
               case processing requirements were completed and documented; and always
               adequately address procedures, processes, and timeframes they would follow. As
               a result, HUD did not have assurance that it always received the highest net return
               on its REO inventory and that holding time was minimized.

               Ofori officials had begun addressing the deficiencies identified during our review,
               including a checklist for Ofori’s marketing specialists to use to improve the
               review of appraisals and for hard-to-sell properties; had updated their inspection
               and closing procedures; and were revising their marketing plans to address
               deficiencies identified during the audit. Ofori officials also began notifying HUD
               of amounts paid at closing that were not previously reported to HUD, however,
               Ofori needs to ensure that the interest and penalties are broken out on the
               spreadsheet. HUD needs to ensure that the added controls address the
               deficiencies identified in the report, including conflicts of interest, and are
               followed.

     Recommendations

               We recommend that the Deputy Assistant Secretary for Single Family Housing
               require Ofori officials to

               1A.     Develop and implement adequate procedures and controls that adequately
                       addresses their processes and timeframes and encompasses the eight specific
                       issues identified in the Finding section relating to “Case Processing for
                       Disposition not Always in Accordance with Requirements and Timeframes.”

               1B.     Reimburse HUD $3,800 in ineligible commissions paid to the listing broker
                       that purchased two properties and determine whether additional action is
                       necessary.

               1C.     Review the 36 GNND closed sales, determine whether the purchasers were
                       eligible participants, and submit documentation to support that the second
                       mortgage and note for these cases, including the $57,500 discount on case
                       number 374-4334673 were recorded and that the all document delivery
                       requirements were met for the 36 cases.

               1D.     Ensure that HUD is properly notified of the $1,394 in costs paid on the
                       HUD-1 that may be the responsibility of the field service managers, the
                       lenders, or both.12




12
  Related to case numbers 372-1680833, 412-6043294, 341-0927619, 441-7769920, 061-2876843, 548-4350643,
251-3824725, 548-4392990, 351-3794529, 374-4458795, 441-6742401, 541-7782122, 352-5601402, 412-5067701,
and 412-5096171.

                                                  13
1E.    Ensure that HUD is reimbursed for the $450 in duplicate payments included
       on the HUD-1s and made on case numbers 548-4392990 and 061-
       3005865.

1F.    Determine whether the $1,517 in unapproved closing costs included on the
       HUD-1 and related to case number 548-4392990 are supported and if not,
       obtain reimbursement from the appropriate contractor.


We also recommend that the Deputy Assistant Secretary for Single Family Housing

1G.    Ensure that all of Ofori’s employees who require access to the P260 system
       obtain timely access.

1H.    Provide guidance to Ofori officials regarding adequately documenting P260
       and the property case files and ensure that it develops adequate controls to
       ensure that all required documentation from disposition to closeout is
       included in the property case files and uploaded to P260.




                                14
                         SCOPE AND METHODOLOGY

Our audit covered the period June 1, 2010, to February 29, 2012, but was expanded when
necessary. We selected Ofori’s Hartford office because Ofori was one of four asset managers in
the Philadelphia Homeownership Center area that was awarded contracts in two geographic
locations. We reviewed property case files for contract areas 2P (Ohio, Pennsylvania, Virginia,
West Virginia, Maryland, the District of Columbia, and Delaware) and 3P (Connecticut, Maine,
Massachusetts, New Hampshire, New Jersey, New York, Rhode Island, and Vermont). We
performed our fieldwork between April and December 2012 at Ofori’s Hartford office.

To accomplish our objective, we

      Reviewed the performance work statements in Ofori’s M&M III asset manager contract
       and its marketing plan(s) in effect during our audit period.

      Reviewed HUD regulations and reference materials and policies and procedures in place
       during our audit period.

      Interviewed Ofori officials and followed up with Homeownership Center officials as
       necessary during the audit.

      Reviewed Ofori’s quality control plan, to ensure that it met contract requirements, and
       quality control reviews and the Homeownership Center’s most recent review to identify
       deficiencies in performance.

We selected our sample of case files using computer-processed data maintained by HUD in its
information system that provides case-level data on single-family housing properties and loans
(Single Family Data Warehouse) to identify properties that were acquired by HUD and closed
during our audit period. We compared these data with information provided by the Philadelphia
Homeownership Center obtained from HUD’s P260 system to ensure that the number of closed
cases agreed. We did not rely on these data to reach our conclusions; therefore, we did not
assess the reliability of the data.

We reviewed a nonstatistical sample of 62 closed case files assigned to Ofori between June 1,
2010, and February 29, 2012. During this period, there were 6,561 closed cases. The sample
represented property case files from both 2P and 3P contract areas. We selected the sample units
without conscious bias; that is, without a special reason for including or excluding them. This
sampling process does not consist of sampling units selected in a careless manner; rather, units
are selected in a way that the auditor expects to be representative of the population. Since the
nonstatistical sample is not the same as a statistical sample, precision at a given confidence level
cannot be determined. Therefore, we did not project our findings to the population using the
sample.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate

                                                15
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               16
                               INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over case processing requirements, timeframes, and bid thresholds
                      to ensure that asset management requirements were met.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                  Ofori officials did not always have adequate controls in place to ensure that case
                   processing requirements included in their marketing plans and contracts were
                   performed adequately and in a timely manner and documented.




                                                 17
                                                APPENDIXES

Appendix A

                          SCHEDULE OF QUESTIONED COSTS


     Recommendation                                    Unsupported
                                Ineligible 1/
         number                                            2/
           1B                           $3,80013
           1C                                                 $57,500
           1D.                                                 $1,394
           1E.                              $450
           1F.                                                 $1,517
                                         ______              _______
                                          $4,250              $60,411




1/         Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
           that the auditor believes are not allowable by law; contract; or Federal, State, or local
           policies or regulations.

2/         Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
           or activity when we cannot determine eligibility at the time of the audit. Unsupported
           costs require a decision by HUD program officials. This decision, in addition to
           obtaining supporting documentation, might involve a legal interpretation or clarification
           of departmental policies and procedures.




13
     This amount is not included in appendix C, as these properties were not part of our sample of 62 cases.


                                                           18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 1




Comment 2




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 3




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 4




Comment 5




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6



Comment 7



Comment 8




Comment 1




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 4




Comment 9




Comment 8


Comment 10




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 11




                         25
                         OIG Evaluation of Auditee Comments

Comment 1   Ofori officials cite an August 2012 HUD CPARS report that mentions that they
            have made tremendous improvements in their performance. They cite over 3,400
            properties acquired many sold at 81 to 85 percent of the appraised value. They
            also mention changes in instructions for marketing specialist to follow when
            preparing a property to list and a report card system to ensure compliance, along
            with other procedures implemented after the audit period. OIG during the time
            period audited, acknowledges that Ofori officials made improvements in case
            processing steps and improvements to its processes and Plans. Therefore, these
            procedures should be presented to HUD during the audit resolution process for
            review.

Comment 2   Regarding the case with the flooded basement, OIG removed the reference to the
            initial inspection report in the finding; however, there was no documented follow
            up on the condition shown in the appraisal. Property condition affects the
            marketability of the property and since the property was not in ready to show
            condition, HUD did not have assurance that the property was appraised properly,
            sold as quickly as possible, and whether officials obtained the highest net value
            for the property.

Comment 3   The email provided to OIG was in response to the finding and was not from the
            time when the counteroffers were made and did not state when HUD wanted
            Ofori to begin implementing the changes. The counteroffers made by Ofori were
            not in compliance with its approved marketing plan in effect at the time;
            therefore, Ofori should have documented HUD approval for the deviation from
            the marketing plan at the time the counteroffers were made.

Comment 4   OIG acknowledges that commissions can be paid by HUD, however, in these two
            cases, the sales commission was paid to the selling broker, who had a conflict of
            interest given that she was a listing broker for Ofori and also the purchaser of the
            property.

Comment 5   Regarding case number 374-433467, OIG acknowledges that subsequent to Ofori
            official’s response included in this report, the original document submitted for
            urgent recording, was in fact recorded on January 31, 2013. Ofori officials’
            actions are responsive to our recommendations, as such; Ofori officials need to
            provide HUD documentation supporting the results of their review of the GNND
            cases during the audit resolution process.

Comment 6   OIG removed the statement from the report related to the project manager being
            unaware of the GNND requirements based on additional explanation provided at
            the exit conference.

Comment 7   OIG removed the CCLRC sale from the report based on explanation from HUD
            that the discount sales addendum was not required in this case.

                                             26
Comment 8     OIG acknowledges that Ofori officials have begun notifying HUD of the cases
              brought to their attention during the audit, however, Ofori Officials must ensure
              that the information provided on the spreadsheet breaks out any penalties and
              interest paid at closing as required.

Comment 9     Regarding Ofori official’s comment related to draft recommendation 1D, this
              recommendation has been merged with the current recommendation 1C;
              nevertheless see our evaluation in Comment 5 above.

Comment 10 OIG revised the recommendation to require that HUD be reimbursed for these
           payments by the appropriate party.

Comment 11 Ofori officials actions to request guidance is responsive to our recommendation;
           as such, OIG acknowledges that HUD needs to provide guidance related to
           required case file documentation.




                                              27
              Appendix C

                                    PROPERTY DEFICIENCIES BY CASE NUMBER




                                                                                                                                                                                                              No follow-up on discrepancies with




                                                                                                                                                                                                                                                                                                                                                                                           Counteroffers not in accordance
                                                                                                                                                                                                                                                                                                                                All available property condition
                                                                                                                                           Sales contract not executed in a
                                      Original list price did not equal


                                                                          Not in ready-to-show condition




                                                                                                                                                                              Not closed in a timely manner
                                                                                                           Not listed in a timely manner




                                                                                                                                                                                                                                                   No follow-up with appraisal




                                                                                                                                                                                                                                                                                                                                information not disclosed




                                                                                                                                                                                                                                                                                                                                                                                                                                                Deficiencies with closing
                                                                                                                                                                                                              ready-to-show condition




                                                                                                                                                                                                                                                                                                       Inspections not timely




                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Unsupported amount
                                                                                                                                                                                                                                                                                                                                                                   Reanalysis not timely
                                                                                                                                                                                                                                                                                 Missing inspections




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Ineligible amount
                  Assignment date




                                                                                                                                                                                                                                                                                                                                                                                                                             No detailed plan
                                      appraised value




                                                                                                                                           timely manner
Case number




                                                                                                                                                                                                                                                   deficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                procedures
                                                                                                                                                                                                                                                                                                                                                                                           with plan
372-1680833       12/03/10                                                                                                                                                                                                                                                       X                     X                                                                                                                                        X                                                $29
412-6043294       12/22/10                                                                                 X                                                                                                                                       X                             X                     X                        X                                                                                                               X                                                $22
249-5120461       10/05/10                                                                                 X                                                                                                                                                                     X                     X                        X                                  X
341-0927619       12/14/10                                                                                 X                                                                                                                                                                                                                                                                                                                                    X                                                $162
061-2862959       12/02/10                                                                                 X                                                                                                                                                                                           X                                                                                                                     X                  X
412-5155149       12/17/11                                                                                                                                                                                    X                                                                                        X
441-8034480       05/16/11                                                                                                                                                                                                                                                                                                                                                                 X                                 X
441-7769920       10/21/11                                                                                                                                                                                                                                                                             X                                                                                                                                        X                                                $106
061-2876843       07/29/11                                                                                                                                                                                                                         X                                                   X                                                                                                                                        X                                                $118
548-4350643       11/15/10                                                                                                                 X                                                                  X                                                                  X                                                                                                                                                              X                                                 $60
231-0878747       10/04/10                                                                                 X                                                                                                                                                                                           X                                                                                                                                        X
541-7948160       03/28/11                                                                                                                                                                                    X                                                                  X                     X                        X                                                                                                               X
541-5412718       09/19/11                                                                                                                                                                                    X                                    X                                                   X                                                                                                                                        X
412-4801679       11/01/10                                                                                 X                                                                                                  X                                                                  X                     X                                                                                                                                        X
412-4922900       06/24/11                                                                                                                                                                                                                                                                                                                                                                                                                      X
413-3777072       12/14/11                                                                                                                                                                                                                         X                             X
411-2718984       07/11/11                                                                                 X                                                                                                                                                                                           X                        X                                                          X                                 X
441-8557854       05/09/11                                                                                 X                                                                                                  X
411-3607849       12/14/10                                                                                 X                                                                                                                                                                                           X                                                                                                                                        X
061-3005865       09/06/11                                                                                                                                                                                    X                                    X                                                                                                               X                                                                            X                                                                           $250
571-0771231       06/09/11                                                                                 X                                                                                                                                                                     X                     X                                                           X                       X
412-6069070       11/15/10                                                X                                X                                                                                                  X                                                                                        X                                                                                   X                                                    X
541-7508151       11/09/10                                                                                 X                                                                                                                                       X                                                                                                               X                                                         X
413-4650522       12/07/10                                                                                                                                                                                                                                                       X                     X                                                                                                                                        X
251-3824725       10/20/11                                                                                                                                                                                                                                                                             X                                                                                                                                        X                                                $108
442-2259744       10/27/10                                                                                 X                                                                                                                                                                                           X                                                           X                                                         X                  X
548-4392990       12/07/10                                                                                 X                                                                                                  X                                    X                                                   X                                                                                                                                        X                                $1,862                                     $200
351-3794529       09/17/10                                                                                 X                                                                                                                                                                                           X                                                           X                                                                            X                                   $73
374-4458795       12/13/10                                                                                 X                               X                                                                                                       X                                                   X                        X                                                                                                               X                                 $123
241-7847865       04/11/11                                                X                                                                                                                                   X                                                                                        X                        X                                                                                                               X
413-4061332       05/27/11                                                                                                                                                                                                                                                                             X                                                                                                                                        X
541-6080812       01/04/12                                                X                                                                                                                                   X




                                                                                                                                                                                                                                                   28
                                                                                                                                                                                                                                                                                                                                                                                           Counteroffers not in accordance
                                                                                                                                                                                                                                                                                                                                All available property condition
                                                                                                                                                Sales contract not executed in a
                                           Original list price did not equal


                                                                               Not in ready-to-show condition




                                                                                                                                                                                                                   No follow-up on discrepancies
                                                                                                                                                                                   Not closed in a timely manner


                                                                                                                                                                                                                   with ready-to-show condition
                                                                                                                Not listed in a timely manner




                                                                                                                                                                                                                                                   No follow-up with appraisal




                                                                                                                                                                                                                                                                                                                                information not disclosed




                                                                                                                                                                                                                                                                                                                                                                                                                                                Deficiencies with closing
                                                                                                                                                                                                                                                                                                       Inspections not timely




                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Unsupported amount
                                                                                                                                                                                                                                                                                                                                                                   Reanalysis not timely
                                                                                                                                                                                                                                                                                 Missing inspections




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Ineligible amount
                         Assignment date




                                                                                                                                                                                                                                                                                                                                                                                                                             No detailed plan
                                           appraised value




                                                                                                                                                timely manner
Case number




                                                                                                                                                                                                                                                   deficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                procedures
                                                                                                                                                                                                                                                                                                                                                                                           with plan
413-3955605             01/29/11                                                                                X                               X                                                                                                                                X                     X                        X
061-2929244             11/22/10                                                                                X                               X                                                                  X                                                                                                                                                                                                                            X
413-3771317             12/04/10                                                                                                                                                                                                                   X                             X                                                                                                         X                                                    X
061-3463508             10/21/10                                                                                X                                                                                                                                                                                      X                                                           X                                                                            X
441-7639304             04/20/11                                                                                                                                                                                                                                                                       X
412-5716386             09/29/10                                                                                X                               X                                                                                                  X                             X                     X                                                                                                                                        X
441-6742401             10/14/10                                                                                X                                                                                                                                                                                      X                                                           X                       X                                 X                  X                                                $89
541-7782122             08/26/11                                               X                                                                                                                                   X                                                                                                            X                                                                                                               X                                                $60
541-7862756             09/13/11                                                                                                                                                                                                                                                                       X                                                           X                       X                                                    X
374-4334673             08/04/11                                                                                                                                                   X                                                               X                                                   X                        X                                                                                                               X                           $57,500
413-3694612             10/29/11                                                                                                                                                                                                                                                 X                     X
352-5601402             12/20/10                                               X                                X                                                                                                  X                                                                                   X                                                           X                                                         X                  X                                                 $5
411-4294473             11/29/11                                                                                                                                                                                                                                                                       X
411-4098966             12/07/10                                                                                X                                                                                                  X                               X                                                                            X                                                                                                               X
412-5601536             01/06/11                                                                                X                                                                                                                                                                                      X                                                           X
412-5067701             06/23/11                                                                                                                                                                                   X                                                             X                                              X                                                          X                                                    X                                                $64
251-3360258             08/12/11                                                                                                                                                                                                                                                                       X                                                                                   X                                                    X
249-2937521             04/28/11           X14                                                                  X                                                                                                                                  X                                                   X                                                           X                       X                                 X
413-4020741             05/23/11                                                                                                                                                                                                                   X                                                   X                                                                                                                                        X
251-3292815             01/11/11                                                                                X                                                                                                                                                                                      X                                                                                   X                                                    X
412-6253559             08/04/11                                                                                                                                                                                                                                                                       X                                                                                                                                        X
412-5920827             07/07/11                                                                                                                                                                                                                                                                                                                                   X                       X
411-3864963             02/09/11                                               X                                X                               X                                                                  X                               X                             X                     X                        X                                                                                                               X
411-2969926             03/26/11                                                                                                                                                                                   X                                                                                   X                                                           X                                                                            X
413-4389905             02/04/11                                                                                                                                                                                                                                                                       X                                                                                   X                                                    X
441-7973682             05/11/11                                                                                                                                                   X                                                               X                                                   X                                                           X                       X                                 X
411-3843905             12/14/11                                               X                                                                                                                                   X                                                             X
412-5096171             02/12/11                                                                                X                               X                                                                                                                                X                     X                        X                                                                                                               X                                                $30
442-2688222             07/07/11                                                                                                                                                                                                                                                 X                     X
412-4681698             02/23/11                                                                                X                               X                                                                                                                                X                     X                                                                                                                                        X
Total cases                                1                                   7                                29                              8                                  2                               19                              16                            19                    46                       13                                 15                      14                                9                  43                          $60,411                                        $450
with
deficiencies




              14
                   This was due to Ofori officials’ not adequately reviewing the appraisal, which had two different values.

                                                                                                                                                                                                                                                   29
